OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/AFGHANISTAN’S
RURAL EXPANSION OF
AFGHANISTAN’S COMMUNITY-
BASED HEALTHCARE (REACH)
PROGRAM
AUDIT REPORT NO. 5-306-06-007-P
August 16, 2006




MANILA, PHILIPPINES
Office of Inspector General


August 16, 2006

MEMORANDUM

TO:                  USAID/Afghanistan Director, Leon S. Waskin

FROM:                Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of USAID/Afghanistan’s Rural Expansion of Afghanistan’s Community-
                     based Healthcare (REACH) Program (Audit Report No. 5-306-06-007-P)


This memorandum transmits our final report on the subject audit, which does not contain any
recommendations. In finalizing the report, we considered your comments to the draft report and
included those comments in their entirety in Appendix II.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

Did selected USAID/Afghanistan’s Rural Expansion of
Afghanistan’s Community-based Healthcare program
activities achieve planned outputs?

Evaluation of Management Comments ......................................................................... 7

Appendix I – Scope and Methodology .......................................................................... 8

Appendix II – Management Comments ....................................................................... 10
SUMMARY OF RESULTS
The Regional Inspector General/Manila conducted an audit to determine whether
selected activities under USAID/Afghanistan’s Rural Expansion of Afghanistan's
Community-based Healthcare (REACH) program had achieved their planned outputs.
(See page 2.)

Afghanistan's health care is among the worst in the developing world. In May 2003,
USAID awarded a three-year $100 million contract to Management Sciences for Health
(MSH) to implement the REACH program to improve access to basic health services for
Afghans and strengthen Afghanistan's health systems. The focus of this program is to
provide access by moving health care closer to women of reproductive age and children
under age five living in rural communities. The contract was subsequently increased to
about $139 million and extended to September 30, 2006. (See page 2.)

The audit concluded that selected activities under USAID/Afghanistan’s REACH
program achieved their planned outputs. Specifically, 19 (95 percent) of 20 selected
activities achieved their planned outputs and one partly achieved its planned output as of
March 31, 2006. (See page 3.) For example, the REACH program awarded $56.2
million to 28 grantees to provide basic health care to Afghans, and the grantees were
providing such health care at 329 sites in 14 Afghan provinces. The program also
distributed $4.7 million of essential drugs to its health care providers and trained 568
midwives to provide reproductive health care services. Additionally the program
completed a number of activities aimed at improving the management and leadership
capacity of Afghanistan’s Ministry of Public Health. (See pages 4 through 6.) Appendix I
describes the methodology used in selecting the 20 activities audited. (See page 8.)

This report does not make any recommendations. USAID/Afghanistan concurred with
the findings in this report. Management comments are included as Appendix II to this
report. (See page 10.)




                                                                                        1
BACKGROUND
Access to health care in Afghanistan is extremely limited after two decades of war and
neglect. Development indicators published by the World Bank and the United Nations
rank Afghanistan at the bottom of virtually every category, including nutrition; infant,
child, and maternal mortality; life expectancy; and literacy. The health status of Afghans
is among the worst in the world. The average life expectancy is approximately 43 years.
About one out of every six Afghan children dies before the age of five. The majority of
Afghans in more than one-third of rural districts have no access to health care.

In May 2003, USAID/Afghanistan awarded a three-year $100 million contract to
Management Sciences for Health to implement the Rural Expansion of Afghanistan's
Community-based Healthcare (REACH) program. The contract was subsequently
increased to about $139 million and extended to September 30, 2006.

The overall goal of the REACH program is to strengthen Afghanistan's health systems,
focusing on the health of women of reproductive age and children under age five. Much
of the service delivery and training is provided through grants to local and international
nongovernmental organizations. There are five activity components in the REACH
program:

•   Expand coverage of maternal health, family planning, child health services and
    control of common infectious diseases through an increased number of health
    facilities and expanded community outreach.

•   Improve the capacity of health providers to provide services in rural areas and in
    health facilities.

•   Develop a social marketing program.

•   Enhance public health education programs.

•   Improve the capacity of the Ministry of Public Health at the national, provincial, and
    district level for health planning, management, and allocation of resources.

As of March 31, 2006, REACH activities were ongoing in all 14 of the Afghan provinces
designated in the REACH contract and USAID had obligated $118 million and disbursed
$83 million for those activities. USAID/Afghanistan’s Social Sector Reform Office is
responsible for monitoring the REACH program.

AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2006 annual audit plan to answer the following question:

•   Did selected USAID/Afghanistan’s Rural Expansion of Afghanistan's Community-
    based Healthcare program activities achieve planned outputs?

Appendix I contains a discussion of the audit’s scope and methodology.


                                                                                        2
AUDIT FINDINGS
Selected activities under USAID/Afghanistan’s Rural Expansion of Afghanistan’s
Community-based Healthcare (REACH) program did achieve their planned outputs.
Specifically, 19 (95 percent) of 20 selected activities achieved their planned outputs and
one partly achieved its planned output as of March 31, 2006.

USAID/Afghanistan’s contractor Management Sciences for Health (MSH) implemented
REACH activities, in partnership with the Afghanistan Ministry of Public Health (MOPH)
at the central and provincial levels, to develop a sustainable foundation for a nationwide
health care system.       REACH awarded performance-based grants to local and
international nongovernmental organizations (NGOs) to expand delivery and availability
of Afghanistan’s Basic Package of Health Services (BPHS). 1 REACH also provided
NGOs with technical assistance, training, pharmaceuticals, and other in-kind supplies.




                                                           OIG photograph of an Afghan
                                                           child with her mother receiving
                                                           medical care in a REACH
                                                           supported health clinic located
                                                           in Kabul.    The clinic serves
                                                           about 130 people per day,
                                                           mostly women and children.
                                                           (June 2006)




In managing the REACH program, USAID/Afghanistan and its implementing partners
faced certain challenges on the ground, such as security, weather, and logistics, over
which they had little or no direct control. For example, security restrictions on travel
outside the Embassy compound made it difficult for USAID staff to visit project sites with
the frequency required. Extreme weather conditions during the winter months also
made it difficult to travel to mountainous and remote locations in rural Afghanistan.

Nevertheless, the Mission and its implementing partners worked through those
challenges and achieved selected planned outputs under the REACH program.




1
 Afghanistan’s BPHS includes seven primary elements: Maternal and Newborn Health; Child
Health and Immunization; Public Nutrition; Communicable Disease Treatment and Control;
Mental Health; Disability Services; and Supply of Essential Drugs.


                                                                                             3
The audit focused on 20 selected activities from two of five activity components in the
REACH program. 2

•   Component #1: Expand the coverage of maternal health, family planning, child
    health services and control of common infectious diseases through an increased
    number of health facilities and expanded community outreach.

•   Component #5: Improve the capacity of the MOPH at the national, provincial, and
    district level for health planning, management, and allocation of resources.

The 20 selected activities consisted of 10 activities from each of the two components.
The OIG considered that the audit objective would be met if 90 percent of the 20
activities achieved their planned outputs. For more information on the audit approach,
please refer to Appendix I of this report.

As of March 31, 2006, REACH achieved planned outputs for 19 of 20 or 95 percent of
selected activities and partly achieved one planned output. The audit results by
component are presented below.

Component #1 – As Table 1 on the next page shows, by the end of March 2006, 9 of 10
selected activities achieved their planned outputs and one activity partly achieved its
planned output. For example, REACH awarded $56.2 million in performance-based
grants to NGOs to expand the health services infrastructure and deliver BPHS to
underserved rural areas, achieving 99 percent of the target. Further, REACH exceeded
its targets for the number of sites providing health services, NGO staff trained,
monitoring visits completed, and technical assistance provided.




                                                           OIG photograph of a nurse teaching
                                                           new Afghan mothers about hygiene
                                                           and child care in Kabul. Educating
                                                           women on maternal and newborn
                                                           health is a key feature of the BPHS
                                                           supported by REACH. (June 2006)




2
  The OIG worked with USAID/Afghanistan to select the components and activities that were
significant to the overall goal of the program. The Mission regularly reported to Washington D.C.
on the progress of many of the selected activities.


                                                                                               4
    Table 1: REACH Achievements for Selected Activities Under Component #1
       Extension of health care services in facilities through outreach to rural areas

                                     As of March 31, 2006
                                                                                          % of
          Activities               Planned Outputs               Achievements            Target
                                                                                          Met
 1. Manage 28 NGO grants           $57 million in grants      $56.2 million in grants     99%
                                         awarded                    awarded
 2. Extend BPHS in selected         324 sites providing        329 sites providing       102%
    provinces                        health services             health services
 3. Manage 4 midwifery            $3.75 million in grants     $3.01 million in grants     80%
    training grants                      awarded                    awarded
 4. Provide midwifery training    612 midwives trained        568 midwives trained       93%
 5. Provide essential drugs to   $4.7 million of essential   $4.7 million of essential   100%
    NGOs                              drugs provided             drugs provided
 6. Conduct program               40 NGO staff trained        134 NGO staff trained      335%
    analysis working
    sessions with NGOs
 7. Conduct drug supply          200 NGO staff trained       282 NGO staff trained       141%
    management training for
    NGOs
 8. Assist MOPH to match          Database of existing             Completed               _
    sites with a service            clinics and new
    provider, equipment, and       construction sites
    other inputs required to      matched with service
    functionalize clinics               providers
 9. Conduct post training         45 monitoring visits         66 monitoring visits      147%
    assessment and provide         completed and TA            completed and TA
    technical assistance (TA)     provided to trainers         provided to trainers
    to Community Health
    Worker trainers
 10. Introduce concept of         300 NGO trainers &          398 NGO trainers &         133%
    "Data for Decision            supervisors trained         supervisors trained
    Making" to NGOs

REACH partly achieved its planned output for Activity #3 by meeting 80 percent of the
target. The planned output was to award four midwifery grant agreements totaling $3.75
million, which was linked to the planned output of Activity #4—to provide midwifery
training to a target of 612 midwives. Despite falling short on the amount of grants
awarded, the number of midwives trained achieved 93 percent of the target.

Component #5 – As Table 2 on the next page shows, REACH had achieved its planned
outputs for all 10 selected activities under Component #5. REACH worked in
partnership with the MOPH at central and provincial levels to help build the Ministry’s
capacity to fulfill both its primary role in the management and organization of public
health programs and secondary role in direct service delivery. Specifically, REACH
worked with the MOPH to develop national policies, strategies, and standards in the
areas of BPHS, budgeting, training and certification, health human resource
management, hospital administration, drug management, and quality assurance



                                                                                                  5
mechanisms. REACH also helped the MOPH develop and manage a national Health
Management Information System (HMIS) to ensure the availability of timely, valid, and
reliable data from the facility level up to the national level, based on which MOPH could
make decisions on how best to deliver BPHS.

    Table 2: REACH Achievements for Selected Activities Under Component #5
    Improve management & leadership capacity of Ministry of Public Health at all levels

                                           As of March 31, 2006

                Activities                            Planned Outputs               Achievements

 1. Participate in national level policy            Better coordination and          Completed
    and strategy meetings                     consensus on major policies and
                                                            strategies
 2. Support MOPH in developing and                Hospital HMIS input forms          Completed
    testing of HMIS                                          finalized
 3. Help MOPH develop and prioritize          A budget approved by MOPH and          Completed
    the National Development Budget                        its partners
 4. Provide TA and training to MOPH                Mechanisms and tools for          Completed
    in establishing a system for health        certification and licensing health
    worker certification and licensing                       workers
 5. Support disseminating and                   Licensed Drug List available at      Completed
    implementing the Licensed Drug                public and private facilities
    List for Afghanistan
 6. Finalize the Medical Drug Supply            Medical Drug Supply training         Completed
    training manual                                   manual published
 7. Develop Provincial Hospital                 Provincial Hospital Standards        Completed
    Standards Manual                                  Manual published
 8. Publication and dissemination of            Revised BPHS published and           Completed
    revised BPHS                                         disseminated
 9. Provide technical support for               NGO grantees and provincial          Completed
    implementation/roll out of HMIS at         health offices have the capacity
    the provincial level                             to implement HMIS
 10. Provide training support to NGO           Training plan on Fully Functional     Completed
   grantees and provincial health              Service Delivery Point concepts
   offices in initial Fully Functional
   Service Delivery Point concepts




                                                                                                   6
EVALUATION OF
MANAGEMENT COMMENTS
The Mission concurred with the findings in this report. Management comments are
included in their entirety in Appendix II.




                                                                             7
                                                                              APPENDIX I


SCOPE AND METHODOLOGY
Scope

The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards to determine whether selected
activities under USAID/Afghanistan’s Rural Expansion of Afghanistan’s Community-
based Healthcare (REACH) program had achieved their planned outputs. As of
March 31, 2006, USAID records showed disbursements of $83 million to rebuild
Afghanistan’s health system under the REACH program.

The audit was performed at USAID/Afghanistan and at the offices of Management
Sciences for Health (MSH)—the primary contractor implementing the REACH program—
and it covered health care activities from April 2003 through March 2006. Fieldwork was
conducted from January 23 to February 15, 2006, and June 15 to 28, 2006.

In total, the REACH program had 270 activities under five activity components. The
audit focused on 20 selected activities from two of the five activity components that both
the Mission and the OIG agreed were significant to the overall program goal:

•   Component #1: Expand the coverage of maternal health, family planning, child
    health services and control of common infectious diseases through an increased
    number of health facilities and expanded community outreach.

•   Component #5: Improve the capacity of the Ministry of Public Health (MOPH) at the
    national, provincial, and district level for health planning, management, and allocation
    of resources.

Component #1 had 56 activities and Component #5 had 102 activities. Using a
judgmental approach, we worked with USAID/Afghanistan to select 10 activities from
each of the two components whose planned outputs were significant and measurable.
The Mission regularly reports the progress of many of these activities to the Deputies
Committee for Afghanistan in Washington D.C. 3 For the 20 selected activities, we
measured planned outputs against actual achievements to determine progress made as
of March 31, 2006.

Because of security restrictions and weather conditions at the time of our fieldwork, we
revised or canceled several planned site visits to REACH-supported nongovernmental
organizations (NGOs) and health care facilities in Afghanistan’s provinces. However, we
performed alternate tests to accomplish our audit objective such as performing site visits
in the Kabul area, increasing documentation review, and testing of program data. We
also reviewed photographs and site visit reports from a variety of sources such as the
primary contractor, Mission staff, and Afghanistan’s MOPH.


3
 The Deputies Committee is led by the National Security Council and comprised of Deputy
Secretaries from U.S. departments/agencies involved in Afghanistan.



                                                                                          8
                                                                              APPENDIX I

As part of the audit, we assessed the significant internal controls used by
USAID/Afghanistan to monitor REACH program activities. The assessment included
controls related to whether the Mission (1) conducted and documented site visits to
evaluate progress and monitor quality, (2) required and approved an implementation plan,
(3) performed contractor performance reviews, (4) reviewed progress reports submitted by
the primary contractor, and (5) compared the primary contractor’s reported progress to
planned progress and the Mission’s own evaluations of progress. We also reviewed the
Mission’s Federal Managers’ Financial Integrity Act report for fiscal year 2005 for any
issues affecting the REACH program. Finally, we reviewed any relevant prior audit reports.

Methodology

To answer the audit objective, we interviewed officials and staff from
USAID/Afghanistan, MSH, Afghanistan’s MOPH, a REACH-supported NGO, and
selected health clinics. Additionally, to measure progress and confirm the accuracy of
the planned outputs achieved and reported to the Mission, we reviewed:

•   Documentation such as, but not limited to, work plans, progress reports, site visit and
    other monitoring reports, and financial records.

•   MSH’s contract and its modifications.

•   NGO grant agreements.

•   MOPH Health Information Management System database and reports.

•   MOPH strategy and policy documents.

•   Laws, regulations, and USAID policy and guidance related to the audit objective.

We answered the audit objective by using a parameter applied to selected activities from
the REACH contract and the primary contractor’s work plan, which scheduled the
planned outputs to be achieved by September 30, 2006. The parameter was as follows:

•   The answer to the audit objective would be positive if 90 percent of selected activities
    achieved their planned outputs.

For each selected activity with a performance target, we used the following parameters
to measure the progress made on its planned output:

•   The planned output would be achieved if 90 percent of the target was met.

•   The planned output would be partly achieved if less than 90 but not less than 70
    percent of the target was met.

•   The planned output would not be achieved if less than 70 percent of the target was
    met.




                                                                                          9
                                                                                                     APPENDIX II


MANAGEMENT COMMENTS
                   USAID AFGHANISTAN                FROM THE AMERICAN PEOPLE




MEMORANDUM

Date:               8 August 2006

To:                 Catherine M. Trujillo, RIG/Manila

From:               Leon S. Waskin, Mission Director /s/

Subject:            USAID/Afghanistan – Response to Draft Audit Report – Audit of
                    USAID/Afghanistan’s Rural Expansion of Afghanistan’s Community-
                    based Healthcare (REACH) Program, Draft Audit Report dated July 18,
                    2006. (Report No. 5-306-06-XXX-P)


         On behalf of USAID/Afghanistan, I would like to thank you for the opportunity to
         review and provide comments on the draft report referenced above.

         The Mission concurs with the findings contained in the report. It is important to
         note that the achievements highlighted by the audit team were carried-out during
         a period of significant instability in Afghanistan. Moreover, in their attempt to
         provide services to the most isolated and under-served populations, health
         professionals typically work in some of the most difficult situations in the country.
         We also believe that the partnership between the Mission, our implementing
         partners and the Ministry of Public Health has made significant strides in
         strengthening Afghanistan’s national health care system and improving the
         health of the Afghan people.


         Thank you.




        U.S. Agency for International Development
        Great Massoud Road                                      Tel: (202) 216-6288
        Kabul                                                   Fax: (202) 216-6288 ext. 4162
        Afghanistan                                             http://www.usaid.gov/locations/asia_near_east/afghanistan

                                                                                                                     10
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
